                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
The Department of Energy's Implementation
of Voice over Internet Protocol
Telecommunications Networks




 DOE/IG-0915                         June 2014
                                  Department of Energy
                                    Washington, DC 20585

                                          June 26, 2014


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Implementation of Voice over Internet Protocol Telecommunications
                         Networks"

BACKGROUND

Advancements in the telecommunications industry have created the ability to consolidate
resources and minimize the continued environmental impact of maintaining facilities to sustain
lines of communication. For example, the use of Voice over Internet Protocol (VoIP) allows the
transmission of voice communications primarily over the internet and reduces reliance on the
public switched telephone networks that have historically been used. According to various
industry authorities, the ability to transfer data and voice over a single network can reduce
operating costs associated with traditional communications networks that separated data and
voice because organizations no longer need to manage and support two networks. Additional
savings can be realized through consolidation of larger, traditional landline systems because
VoIP networks are not bound by geographic limitations. As such, high capacity networks can be
deployed and provide telecommunications services to users in other areas or regions, potentially
eliminating a significant portion of long distance charges.

The Department of Energy initiated and/or completed implementation of VoIP networks at more
than 14 locations at a cost of over $56 million. While this technology potentially provides many
benefits, it also presents additional security risks. The most serious threat to VoIP systems is an
attack that results in massive increases in network traffic that can render a system inoperable.
Because of the number of ongoing VoIP efforts and substantial costs involved, we initiated this
audit to determine whether the Department planned and implemented its VoIP
telecommunications networks in an efficient and secure manner.

RESULTS OF AUDIT

Our review identified opportunities to improve the efficiency and enhance cybersecurity of the
Department's VoIP networks. In particular, we found:

   •   When upgrading aging telecommunications systems, programs and sites had undertaken a
       number of separate VoIP network implementations, a practice that potentially resulted in
       duplicative capabilities. For example, four sites at the Oak Ridge Reservation
       independently implemented separate VoIP networks or had performed pilot projects to
       implement new networks. In addition, we observed planning and coordination
       weaknesses at Headquarters, the Hanford Site and the Pacific Northwest National
       Laboratory.

   •   Programs and sites had not always applied required cybersecurity controls to VoIP
       networks, thus increasing the risk of compromise. Contrary to Federal requirements,
       seven of the nine sites we reviewed had conducted limited or no vulnerability scanning
       and penetration testing on installed VoIP systems. We also identified weaknesses related
       to incomplete and/or untested contingency plans and failure to conduct or document the
       completion of periodic security control assessments.

The issues identified occurred, in part, because the Department had not developed and
implemented a coordinated approach to support the implementation of VoIP efforts. Had the
Department done so, the number of separate efforts undertaken likely could have been reduced
and more effectively managed. We found that coordination between programs and sites that
were implementing VoIP systems could have potentially decreased the more than $56 million in
estimated implementation costs. For instance, programs and sites could have worked with one
another to ensure that common VoIP resources such as hardware, support services and licensing
costs were shared, as appropriate. The Department also had not adequately monitored the
implementation of cybersecurity controls for VoIP systems. As an example, site office officials
had not performed assessments of contractor VoIP network security at most of the sites
reviewed.

Without improvements, the duplicative and fragmented VoIP implementation approach that we
identified could continue unabated and result in additional, unnecessary expenditures of resources at
programs and/or sites that have not yet upgraded to VoIP systems. In addition, the Pacific
Northwest National Laboratory spent approximately $1 million to implement a system without
adequately considering alternatives, a decision which ultimately resulted in additional expenditures.
Furthermore, the Department's information systems and networks will be at increased risk of
compromise if cybersecurity controls are not appropriately identified and implemented.

Notably, many of the programs and sites reviewed had proactively acknowledged that existing
telecommunications systems such as older hard-wired phone systems were nearing end-of-life and
were in need of upgrade to continue to meet mission needs. We acknowledge that upgrading to a
VoIP solution is likely to improve the Department's telecommunications infrastructure. However,
the path the Department is on is not fiscally sustainable or efficient.

As such, we made serveral recommendations designed to address the issues outlined in our report.
We recognize that there are many nuances related to the Department's organizational structure
involving Federal and contractor elements that need to be considered. We believe, however, that
improvements are possible and that our recommendations, if fully implemented, should help the
Department manage the implementation of this technology in a more efficient and secure manner.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
had been taken related to the Department's ongoing VoIP efforts. Our review of management's
                                                2
technical comments identified that additional work is necessary. Management's formal
comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security
    Deputy Under Secretary for Science and Energy
    Deputy Under Secretary for Management and Performance
    Chief of Staff
    Chief Information Officer




                                              3
AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
IMPLEMENTATION OF VOICE OVER INTERNET PROTOCOL
TELECOMMUNICATIONS NETWORKS


TABLE OF CONTENTS

Audit Report

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Management Response and Auditor Comments ..............................................................................7

Appendices

     1. Objective, Scope and Methodology .....................................................................................8

     2. Prior Reports ......................................................................................................................10

     3. Management Comments ....................................................................................................11
THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF
VOICE OVER INTERNET PROTOCOL TELECOMMUNICATIONS
NETWORKS

DETAILS OF FINDING
The Department of Energy (Department) had not always planned and managed its
implementation of Voice over Internet Protocol (VoIP) telecommunications networks in an
efficient and secure manner. In particular, the Department had undertaken separate, potentially
duplicative implementations of VoIP networks. Furthermore, cybersecurity controls intended to
protect VoIP networks were not always appropriately implemented at all programs and sites
reviewed.

VoIP Implementation

When upgrading aging telecommunications systems, the Department deployed separate,
potentially duplicative VoIP networks. At the time of our audit, more than 14 locations had
initiated and/or completed separate VoIP efforts costing in excess of $56 million for the
acquisition of resources, including hardware, support services and licensing costs. In particular:

   •   Four sites reviewed at the Oak Ridge Reservation either had separate VoIP networks in
       place or had performed pilot projects to implement new networks. For instance, the Oak
       Ridge Office (ORO) had initiated a project to replace its landline telephone system with a
       VoIP solution through the Office of Science's (Science) Information Technology
       Modernization Plan which, when completed, will provide updated telecommunications
       services to Federal employees throughout Science. While ORO officials noted that this
       system had been implemented with the capacity to allow for expansion to include the
       other sites on the Oak Ridge Reservation, we found that other sites were independently
       carrying out their own VoIP activities. Specifically, Oak Ridge Associated Universities
       officials confirmed that their separate service provider-managed VoIP system was
       operational, and the East Tennessee Technology Park spent $21,000 on a VoIP pilot
       project in 2008 with the support of ORO but discontinued the effort after 24 months due
       to a lack of financial feasibility. In addition, the Oak Ridge National Laboratory began a
       separate project in 2011 to provide VoIP services to that site. Officials also told us that
       future phases of the Science VoIP initiative will expand ORO's network to provide
       telecommunications services to Federal employees at other site offices and Headquarters.
       However, this effort is potentially duplicative of services that may already be available at
       those sites, including the Office of the Chief Information Officer's (OCIO) VoIP network
       at Headquarters.

   •   Other sites had split existing telecommunications systems to implement separate VoIP
       networks. For example, even though they are located in the same geographic area, the
       Pacific Northwest National Laboratory (PNNL) and the Hanford Site (Hanford) each
       implemented or were implementing separate VoIP networks. Prior to 2007, certain
       buildings at PNNL were connected to the Hanford phone system. According to Hanford
       officials, when the site was planning its VoIP deployment, it invited PNNL to join;
       however, officials stated that PNNL declined. PNNL officials commented that,
       subsequent to 2007, the site decided to implement its own VoIP network because it


Details of Finding                                                                         Page 1
         believed that moving to its own system permitted process improvements that better
         achieved objectives related to functional capacity, security, reliability and operational
         cost requirements. However, much, if not all, of what PNNL hoped to achieve could
         have been accomplished by consolidating its needs with the Hanford and implementing a
         joint VoIP network, thus avoiding duplicative efforts. The Hanford system was able to
         support approximately 22,000 lines of services – only about half of which were being
         used. The PNNL VoIP system was estimated to provide up to 7,000 lines of service.
         Proposed funding for the new PNNL network totaled approximately $2.8 million, while
         the Hanford VoIP initiative was completed at just under $7 million. Office of
         Environmental Management officials noted that the capacity of the Hanford VoIP
         network was designed for future growth to accommodate other Office of Environmental
         Management sites. While we agree with management's statement, we continue to
         maintain that additional capacity could have been used to meet PNNL's needs had the
         sites better coordinated.

         In addition, PNNL expended significant resources to perform a partial system
         implementation even though a more cost effective alternative had been identified. The
         expenditures may have been avoidable had the recommendations of a site commissioned
         alternatives analysis been implemented. That analysis recommended that PNNL continue
         with its then-current solution for a period of time to allow the VoIP technology and
         markets to mature. However, officials chose to implement a limited 1,200 line system at
         a cost of approximately $1 million. Site officials have since chosen what they believe to
         be a more cost effective solution that added almost 6,000 lines at a cost of $1.8 million.
         Even though the analysis conducted for PNNL recommended that postponing the
         development of a VoIP network was the most cost effective solution, the Federal site
         office did not question PNNL's decision to proceed with its implementation.

Cybersecurity Controls

Sites had not always applied all required technical cybersecurity controls to VoIP networks.
Contrary to security requirements issued by the National Institute of Standards and
Technology, only limited vulnerability scanning and penetration testing was performed on the
installed VoIP systems at seven of nine sites reviewed. VoIP networks are subject to the same
security weaknesses that can affect the confidentiality, integrity and availability of data
networks. Additionally, VoIP networks can provide additional threat vectors for traditional
exploits and malware through the significant increase in network internet protocol addresses.
As such, the timely identification and remediation of vulnerabilities that could cause attacks
such as Denial of Service 1 within the network is imperative to ensure continued service.

Our testing also revealed a number of issues related to process-oriented general security
controls that could increase the risk of compromise to the telecommunications networks and
other interconnected information systems. In particular, contingency plans had not always
been fully developed and tested on the VoIP system reviewed at PNNL, and the OCIO could

1
 A Denial of Service attack is an incident in which a user or organization is deprived of network services such as
e-mail or VoIP, usually through an overload of network traffic to an internet protocol address.

Details of Finding                                                                                          Page 2
not provide documentation demonstrating that contingency plans had been tested on a regular
basis. Although PNNL officials noted that they had completed a disaster recovery plan, we
found that the plan did not address the recovery of the site's VoIP system in the event of a loss
of availability. As required by the National Institute of Standards and Technology,
information system owners should develop, test and revise contingency plans on a regular
basis as part of maintaining a system's operation.

Furthermore, two of nine sites reviewed did not perform required security control assessments.
Specifically, PNNL and Oak Ridge National Laboratory did not perform or could not provide
documentation to support that security assessments had been performed on a periodic basis.
Periodic security assessments allow programs and sites to address changing security
requirements, emerging threats, vulnerabilities, attack methods and the availability of new
technologies. PNNL officials noted that they assessed the risks associated with VoIP systems.
However, our review of PNNL's system security plan determined that the document did not
include information about which National Institute of Standards and Technology controls were
implemented on the network or provide assurance that such controls were tested and operating
as intended.

Management of Telecommunications Infrastructure

The issues identified occurred, in part, because the Department had not ensured a coordinated
and well-communicated approach related to the implementation of VoIP systems. In addition, a
lack of effective monitoring of the various program/site level initiatives adversely impacted the
Department's ability to ensure efficient and effective implementation of VoIP systems and
corresponding cybersecurity controls.

                                 Coordination and Planning

Department officials had not always ensured that a coordinated and well-communicated
approach was executed during the implementation of VoIP networks. As such, many sites had
undertaken ad-hoc VoIP implementation initiatives without consistent direction or appropriate
coordination. For instance, even though the Department's OCIO was implementing a VoIP
system at Headquarters, Science planned to establish its own capabilities through the Science
VoIP initiative. Had the numerous ongoing projects been fully coordinated, the Department
would have had the opportunity to perform appropriate studies and likely have been able to
coordinate system implementations in a more cost effective and efficient manner. Absent
effective coordination, one of the key advantages of VoIP was diminished – cost reduction
through scalability. Specifically, coordination between programs and sites that were
implementing VoIP could have potentially decreased the more than $56 million in estimated
implementation costs and helped ensure that common VoIP resources such as hardware, support
services and licensing costs were shared, as appropriate. Although Science officials commented
that the program's Information Technology Modernization Plan would help ensure coordination
of VoIP efforts, we noted that the plan was limited to Federal elements and did not include
operating contractors.

A lack of planning also contributed to the implementation issues that were identified. In
particular, while Science had outlined a three-phased approach to providing VoIP services to its

Details of Finding                                                                          Page 3
Federal employees, officials had not completed planning activities for efforts beyond the first
phase, which was underway at ORO. As such, Science officials could not provide cost estimates
for future efforts and had not fully considered the potential duplication issues we identified
between the national laboratories and site offices. In addition, PNNL had not followed the
recommendation of an alternatives analysis it commissioned which identified a more cost
effective solution to its initial VoIP implementation.

In technical comments on our report, management stated that it had drafted an Information
Resource Management Strategic Plan and planned to implement VoIP capabilities to all of the
OCIO's current customers at Headquarters. While this is an encouraging first step, it may not
fully address the issues identified during the audit because the scope of the planned efforts did
not include Headquarters programs that were not current OCIO customers or any of the
Department's field elements. In addition, technical comments from the Department's various
programs generally did not provide evidence demonstrating increased cooperation across the
Department.

                                   Performance Monitoring

The Department had not adequately monitored the implementation of VoIP efforts or related
cybersecurity controls. In particular, neither the OCIO nor program offices had conducted an
adequate review or evaluation of the various VoIP implementations being undertaken.
Monitoring and oversight of VoIP projects should have begun early in the process and could
have allowed the Department to fully evaluate the benefits and need for VoIP networks. To date,
the Department has yet to assign oversight responsibility for VoIP implementation to any
centralized authority, such as the OCIO or a related information technology council.

We also found that the Department had not adequately monitored the implementation of
cybersecurity controls for VoIP systems. Programs left the interpretation and implementation of
cybersecurity controls up to site offices. However, we found that certain site offices had not
adequately monitored the development and implementation of these controls. Specifically, site
office officials had not ensured that performance assessments of VoIP network security had
occurred at most of the sites reviewed. As a result of the lack of monitoring and/or guidance
related to VoIP implementation, cybersecurity controls were not consistently applied or not
applied at all across the Department and resulted in increased risks to systems and networks.

In response to our report, management indicated that efforts were underway to strengthen its
performance monitoring program. For instance, the National Nuclear Security Administration
indicated that VoIP networks will be included in various cybersecurity surveys and reviews and
noted that it will reemphasize the need to ensure adequate security over VoIP systems. In
addition, Science commented that it ensured effective performance monitoring related to
cybersecurity as part of implementing and monitoring the VoIP controls recommended by
Federal guidance and that VoIP controls are monitored through the results of independent
surveys conducted by the Department's Office of Cyber Assessments. However, we learned
through discussions with Office of Cyber Assessments personnel that VoIP systems at Science
locations have not been tested. Ensuring that VoIP systems are within the scope of assessments
can be a valuable management tool and further enhance performance monitoring activities.



Details of Finding                                                                          Page 4
Opportunities for Improvement

Without improvements in coordination, planning and ensuring effective performance
monitoring, the Department will continue to implement a duplicative, decentralized and
fragmented approach for managing VoIP systems. Had the Department examined and
identified opportunities for consolidation of its multiple VoIP networks, it may have realized
significant savings related to the implementation and support of its voice networks. For
example, had the Department fully assessed its enterprise-wide telecommunications needs and
appropriately coordinated and consolidated its efforts to the extent practical, it could have
potentially reduced the $56 million spent on VoIP efforts. Enhanced performance monitoring
of ongoing and future VoIP network implementations could also reduce expenditures. We
noted that PNNL spent almost $1 million on its initial VoIP implementation. However,
officials stated that after installing a solution that supported over 1,200 lines of service, the
expansion of that project was halted to review another solution that they believed would be
more cost effective – a solution that will provide almost 6,000 lines of service at a cost of $1.8
million. Going forward, effective coordination, monitoring and consolidation could save the
Department significant amounts of increasingly scarce funds. Furthermore, lack of effective
performance monitoring by programs and sites to appropriately identify and implement cyber
security controls may increase the risk of compromise to information systems and networks.

As noted in the Department's recently developed Information Technology Modernization
Strategy, it must seek opportunities to improve efficiency and reduce the cost of services. This
strategy jointly tasks the Department's and National Nuclear Security Administration's Chief
Information Officers with modernizing the information technology environment and
identifying opportunities to share services, reduce costs and leverage new technologies. The
corrective actions recommended in this report can help remediate the issues identified during
our audit and facilitate the Department's implementation of its Information Technology
Modernization Strategy as it begins examining alternatives for unified communications such as
integration of instant messaging, web and video conferencing, voice, e-mail and calendaring.

Notably, some Department sites realized savings through the implementation of VoIP networks.
Hanford reported that it realized savings of approximately $2 million per year through its VoIP
implementation. These savings resulted from lowered operational costs related to reducing
overall power consumption and reduced maintenance and labor costs. Officials at Los Alamos
National Laboratory stated that they had realized similar savings.




Details of Finding                                                                          Page 5
RECOMMENDATIONS
To more effectively manage its Voice over Internet Protocol telecommunications networks in an
efficient and secure manner, we recommend that the Under Secretary for Nuclear Security, the
Deputy Under Secretary for Science and Energy and the Deputy Under Secretary for
Management and Performance, in coordination with the Department's and National Nuclear
Security Administration's Chief Information Officers:

   1. Develop and implement an enterprise-wide telecommunications strategy that leverages
      existing resources; encourages communication, cooperation and planning by and among
      programs and sites; and eliminates unnecessary duplication and excess capacity; and

   2. Ensure effective performance monitoring to strengthen cyber security over VoIP systems
      and networks, including correcting, through the implementation of appropriate controls,
      the cyber security weaknesses identified in this report.




Recommendations                                                                       Page 6
MANAGEMENT RESPONSE
Management concurred with the report's recommendations and commented that corrective
actions had been taken and/or initiated. Management commented that the Department's
Information Resource Management Strategic Plan included language to improve collaboration
when delivering management and technology solutions. Management also indicated that efforts
were being made to ensure effective performance monitoring to strengthen cybersecurity over
VoIP systems and networks. In technical comments, the National Nuclear Security
Administration commented that it will evaluate potential enterprise-wide opportunities related to
VoIP implementation and will reemphasize that VoIP systems must meet Federal cybersecurity
requirements. Science management commented that it will work with the OCIO and other
stakeholders to develop a strategic plan related to VoIP.

AUDITOR COMMENTS
Management's comments are generally responsive to our recommendations. However, although
management concurred with the report's recommendations and considered corrective actions for
both recommendations to be complete, technical comments submitted by various program offices
related to coordination, planning and performance monitoring indicated that additional work is
necessary to address the report's recommendations. We have addressed management's technical
comments in the body of the report. Management's comments are included in Appendix 3.




Management Response and Auditor Comments                                                 Page 7
                                                                              APPENDIX 1

                   OBJECTIVE, SCOPE AND METHODOLOGY
Objective

To determine whether the Department of Energy (Department) planned and implemented its
Voice over Internet Protocol (VoIP) telecommunications networks in an efficient and secure
manner.

Scope

We conducted the audit from November 2012 to June 2014, at Headquarters offices in
Washington, DC and Germantown, Maryland; Oak Ridge National Laboratory, Y-12 National
Security Complex, East Tennessee Technology Park, Oak Ridge Associated Universities and the
Oak Ridge Office in Oak Ridge, Tennessee; Pacific Northwest National Laboratory, Richland
Operations Office and the Hanford Site, in Richland, Washington; Los Alamos National
Laboratory in Los Alamos, New Mexico; and Sandia National Laboratories in Albuquerque,
New Mexico. This audit was conducted under Office of Inspector General project number
A13TG009.

Methodology

To accomplish the audit objective, we judgmentally selected a sample of 10 Departmental sites.
This selection was based on the sites' implementation of unclassified VoIP networks. Because a
judgmental sample was used, results are limited to the sites or locations selected. Additionally,
we:

   •   Evaluated the Department's policies and procedures regarding the communications
       equipment;

   •   Evaluated the costs associated with the Department's implementation of VoIP networks;

   •   Determined whether a risk-based approach had been implemented to assist in the security
       of communications equipment;

   •   Evaluated protective measures to determine if both physical and cyber related
       vulnerabilities had been considered for the Department's communications infrastructure;

   •   Reviewed actions taken to address prior findings and recommendations relevant to this
       audit area; and

   •   Identified opportunities for improving the Department's management of its unclassified
       communications resources.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Objective, Scope and Methodology                                                          Page 8
                                                                              APPENDIX 1
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Accordingly, we assessed
significant internal controls and the Department's implementation of the GPRA Modernization
Act of 2010 and determined that it had not established performance measures for the
management of its telecommunications infrastructure. Because our review was limited, it would
not have necessarily disclosed all internal control deficiencies that may have existed at the time
of our evaluation. We did not rely on computer-processed data to satisfy our audit objectives.

Management waived an exit conference.




Objective, Scope and Methodology                                                          Page 9
                                                                               APPENDIX 2

                                     PRIOR REPORTS

•   Evaluation Report on The Department's Unclassified Cyber Security Program – 2013
    (DOE/IG-0897, October 2013). The Department of Energy (Department) had taken a
    number of positive steps over the past year to correct cyber security weaknesses related to its
    unclassified information systems. In spite of these efforts, our testing revealed various
    weaknesses related to security reporting, access controls, patch management, system
    integrity, configuration management, segregation of duties and security management. The
    weaknesses identified occurred, in part, because Department elements had not ensured that
    policies and procedures were fully developed and implemented to meet all necessary cyber
    security requirements. In addition, the Department continued to operate a less than fully
    effective performance monitoring and risk management program. Absent improvements to
    its unclassified cyber security program, the Department's information and systems will
    continue to be at a higher than necessary risk of compromise.

•   Audit Report on Telecommunications Infrastructure (DOE/IG-0537, December 2001). The
    report identified that duplicative data transmission infrastructures existed across the
    Departmental complex. Further, the Department had not optimized the acquisition of internet
    and video services. Specifically, organizations maintained about 190 data transmission
    circuits that duplicated capabilities of other Department-wide networks; a number of sites
    utilized open market sources to acquire internet service that could have been provided from
    existing capacity; and organizations were maintaining video teleconferencing capabilities that
    were incompatible with corporate networks. These problems occurred because the
    Department had not developed and implemented a coordinated approach to the acquisition
    and use of telecommunications equipment and services. Further, the Department had not
    adopted a comprehensive set of performance measures and incentives which would have
    encouraged both Federal employees and contractors to obtain necessary telecommunications
    capabilities as cost effectively as possible. As a consequence, the Department annually
    spends at least $4 million more than necessary to operate and maintain its
    telecommunications infrastructure.




Prior Reports                                                                             Page 10
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 11
                      APPENDIX 3




Management Comments        Page 12
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
